NO. 19-_____

In the
Supreme Court of the United States
JAMES HUFF, Individually and
on Behalf of Others Similarly Situated,

Petitioner,
v.

TELECHECK SERVICES, INC.;
TELECHECK INTERNATIONAL INC.;
FIRST DATA CORPORATION,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
PETITION FOR WRIT OF CERTIORARI

MARTIN D. HOLMES

COUNSEL OF RECORD

DICKINSON WRIGHT PLLC
FIFTH THIRD CENTER, SUITE 800
424 CHURCH STREET
NASHVILLE, TN 37219
(615) 244-6538
MDHOLMES@DICKINSONWRIGHT.COM
COUNSEL FOR PETITIONER

DECEMBER 11, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i

QUESTION PRESENTED
Whether a consumer who requested his entire
credit file under the Fair Credit Reporting Act has
suffered a concrete injury sufficient to confer Article
III standing where the consumer reporting agency, as
part of its systematic practices, withheld substantive
information in the consumer’s file (including inaccurately linked bank accounts) that the agency relies on
to make credit determinations about the consumer?

ii

PARTIES TO THE PROCEEDING
Petitioner


James Huff was plaintiff in the district court
and plaintiff-appellant in the court of appeals.

Respondents


Telecheck Services, Inc., Telecheck International Inc., and First Data Corporation were
defendants in the district court and defendants-appellees in the court of appeals.

iii

LIST OF PROCEEDING
United States Court of Appeals, Sixth Circuit
No. 18-5438

James Huff, Plaintiff-Appellant v.
Telecheck Services, Inc., Telecheck International, Inc.,
First Data Corporation, Defendants-Appellees
Decision Date: May 3, 2019
Rehearing En Banc Denial Date: July 19, 2019
_______________________
United States District Court,
Middle District of Tennessee Nashville Division
No. 3:14-cv-01832

James Huff, Plaintiff v. Telecheck Services, Inc.,
Telecheck International, Inc.,
First Data Corporation, Defendants
Decision Date: March 30, 2018

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING ........................... ii
LIST OF PROCEEDING ........................................... iii
TABLE OF AUTHORITIES ...................................... vi
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .................................. 2
INTRODUCTION AND
STATEMENT OF THE CASE ............................. 2
A. The Statutory Protections................................ 6
B. Factual Background and District Court
Proceedings ........................................................ 8
C. Sixth Circuit Proceedings. ............................. 10
REASONS FOR GRANTING THE PETITION ....... 13
I.

THE LOWER COURTS HAVE ADOPTED
DIFFERENT TESTS TO DETERMINE WHETHER
A STATUTORY VIOLATION IS SUFFICIENTLY
CONCRETE TO CONFER ARTICLE III
STANDING ........................................................ 13
A. Lower Courts Disagree Regarding the
Concreteness of Informational Injuries ..... 13

v
TABLE OF CONTENTS – Continued
Page
B. Lower Courts Disagree on Whether to
Differentiate Between Procedural and
Substantive Rights ................................... 19
C. Lower Courts Disagree on How to
Analyze Risk of Harm ................................ 21
II. THE DECISION BELOW IS PLAINLY WRONG
BECAUSE IT CANNOT BE RECONCILED WITH
THIS COURT’S STANDING PRECEDENT.............. 22
III. THIS CASE IS AN IDEAL VEHICLE TO
ADDRESS A FREQUENTLY RECURRING ISSUE
OF EXCEPTIONAL IMPORTANCE ........................ 29
CONCLUSION.......................................................... 32
APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Sixth Circuit (May 3, 2019) ......................... 1a
Order of the United States District Court for the
Middle District of Tennessee, Nashville Division
(March 30, 2018) ............................................... 27a
Order of the United States Court of Appeals for
the Sixth Circuit Denying Petition for
Rehearing En Banc (July 19, 2019) ................. 40a
Relevant Statutory Provisions ............................... 42a
Oral Deposition of Stephen B. Moore
—Relevant Excerpts (August 9, 2017) ............. 48a

vi
TABLE OF AUTHORITIES
TABLE OF AUTHORITIES
CASES

Page

Burke v. Fed. Nat’l Mortg. Ass’n,

No. 16-CV-153-HEH,
2016 WL 4249496 (E.D. Va. 2016) ...................... 19

Casillas v. Madison Avenue Assocs., Inc.,

926 F.3d 329 (7th Cir. 2019) ................. 15, 21, 22

Church v. Accretive Health, Inc.,

654 Fed. App’x 990 (11th Cir. 2016) ..... 14, 15, 20

Dalton v. Capital Associated Indus., Inc.,

257 F.3d 409 (4th Cir. 2001) ............................... 6

Dreher v. Experian Info. Sols., Inc.,

856 F.3d 337 (4th Cir. 2017) ....................... 16, 17

Eichenberger v. ESPN, Inc.,

876 F.3d 979 (9th Cir. 2017) ........................... 19

Federal Election Comm’n v. Akins,

524 U.S. 11 (1998) ....................................... passim

Gillespie v. Equifax Info. Servs., LLC,

484 F.3d 938 (7th Cir. 2007) ............................... 7

Gubala v. Time Warner Cable, Inc.,

846 F.3d 909 (7th Cir. 2017) ............................. 19

Hagy v. Demers & Adams,

882 F.3d 616 (6th Cir. 2018) ............................. 18

Hauser v. Equifax, Inc.,

602 F.2d 811 (8th Cir. 1979) .............................. 7

Havens Realty Corp. v. Coleman,

455 U.S. 363 (1982) ........................................... 14

vii
TABLE OF AUTHORITIES—Continued
Page

Landrum v. Blackbird Enterprises, LLC,

214 F.Supp.3d 566 (S.D. Tex. 2016) ............. 15, 16

Larson v. Trans Union, LLC,

201 F.Supp.3d 1103 (N.D. Cal. 2016) .......... 14, 15

Macy v. GC Services Limited Partnership,

897 F.3d 747 (6th Cir. 2018) ............ 12, 18, 21, 22

Matera v. Google Inc., No. 15-CV-04062-LHK,

2016 WL 5339806 (N.D. Cal. 2016) ..................... 20

Melito v. Experian Marketing Sols.,

923 F.3d 85 (2d Cir. 2019) .................................. 20

Meyers v. Nicolet Restaurant of De Pere, LLC,

843 F.3d 724 (7th Cir. 2016)................................ 19

Nicklaw v. CitiMortgage, Inc.,

839 F.3d 998 (11th Cir. 2016) ...................... 13, 14

Public Citizen v. Department of Justice,

491 U.S. 440 (1989) ...................................... passim

Ricketson v. Experian Info. Sols., Inc.,

266 F.Supp.3d 1083 (W.D. Mich. 2017) ................ 7

Robertson v. Allied Sols., LLC,

902 F.3d 690 (7th Cir. 2018)......................... passim

Spokeo, Inc. v. Robins,

136 S. Ct. 1540 (2016) ................................ passim

Strubel v. Comenity Bank,

842 F.3d 181 (2d Cir. 2016) ................... 12, 17, 18

Thomas v. FTS USA, LLC,

193 F.Supp.3d 623 (E.D. Va. 2016) .................... 21

viii
TABLE OF AUTHORITIES—Continued
Page
CONSTITUTIONAL PROVISIONS
U.S. Const. Art. III, § 2 ...................................... passim
STATUTES
15 U.S.C. § 1681 et seq ...................................... passim
28 U.S.C. § 1254(1) ..................................................... 1
OTHER AUTHORITIES
115 Cong. Rec. 2, 412 (1969)........................... 7, 29, 31
S. Rep. No. 517,
91st Cong., 1st Sess. 2 at 1-2 ................................. 7

1

PETITION FOR WRIT OF CERTIORARI
Petitioner James Huff respectfully petitions for
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit
in this case.

OPINIONS BELOW
The Sixth Circuit’s 2-1 opinion is reported at 923
F.3d 458 and reproduced at App.1a-26a. The district
court’s opinion is unreported but reproduced at App.27a39a.

JURISDICTION
The Sixth Circuit issued its opinion on May 3,
2019. Huff timely filed a petition for rehearing en
banc on May 17, 2019, which the court denied on
July 19, 2019, after Respondents filed a response on
June 28, 2019 as directed on June 14, 2019. This
Court has jurisdiction under 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Article III, Section 2 of the United States Constitution provides:
“The judicial Power shall extend to all Cases, in
Law and Equity, arising under . . . the Laws of
the United States, and . . . to Controversies. . . . ”
The pertinent provisions of the Fair Credit
Reporting Act (“FCRA”), 15 U.S.C. § 1681 et seq., are
reproduced at App.42a-47a.

INTRODUCTION AND
STATEMENT OF THE CASE
In the landmark case of Spokeo, Inc. v. Robins,
136 S. Ct. 1540 (2016), this Court held that “the
violation of a procedural right granted by statute can
be sufficient in some circumstances to constitute
injury in fact,” in which case a plaintiff “need not
allege any additional harm beyond the one Congress
has identified.” Id. at 1549. This Court framed the
question as whether the plaintiff has alleged “a bare
procedural violation, divorced from any concrete
harm,” or a procedural violation that “entail[s] a
degree of risk sufficient to meet the concreteness
requirement.” Id. at 1549-50. This Court also viewed
history and the judgment of Congress as important
and instructive in the analysis. Id. at 1549.

3
The Court gave an example that would likely not
constitute a concrete injury—finding it “difficult to
imagine how the dissemination of an incorrect zip
code, without more, could work any concrete harm”
that Congress sought to prevent with the FCRA—
but it took no position on whether the respondent had
suffered a concrete injury. Id. at 1550. Indeed, beyond
the zip code example, the Court offered “no view about
any other types of false information that may merit
similar treatment.” Id. at 1550 n.8.
The Court was careful to preserve the justiciability
of claims involving certain “informational injuries,”
i.e., violations of statutory provisions that require the
disclosure of substantive information. Id. at 1549-50
(citing Federal Election Comm’n v. Akins, 524 U.S.
11 (1998) and Public Citizen v. Department of Justice,
491 U.S. 440 (1989)). The Court made clear that certain
deprivations of statutorily-required information are
concrete in their own right, but it did not delineate the
types of informational injuries that confer standing.
Justice Thomas joined the Court’s opinion but
wrote separately to discuss what he believed to be an
important distinction between statutory rights that
protect individuals and those that protect the public
at large. Id. at 1550 (Thomas, J., concurring). He stated
that § 1681e(b) of the FCRA “could arguably establish
a private cause of action to vindicate the violation of
a privately held right,” in which case “the violation of
the legal duty suffices for Article III injury in fact.”
Id. at 1553-54.
Writing in dissent, Justice Ginsburg agreed with
much of the Court’s opinion, including what she
perceived to be a focus on whether Congress connected

4
the procedural requirement “to the prevention of a
substantive harm.” Id. at 1555 (Ginsburg, J., dissenting)
(emphasis added). She dissented because she viewed
a remand as unnecessary where the respondent plainly
suffered a concrete injury: “Far from an incorrect zip
code, Robins complains of misinformation” in his credit
report “that could affect his fortune in the job market.”
Id. at 1556.
In the years since Spokeo, lower courts have
struggled to apply this Court’s teachings consistently.
The divisions—which are at least three-fold—concern
how to differentiate between bare procedural violations
on the one hand and violations that are sufficiently
concrete on the other.
The first division concerns informational injuries.
Whereas the Seventh, Ninth, and Eleventh Circuits
recognize informational injuries under various disclosure requirements in consumer protection statutes as
sufficiently concrete in their own right, the Fourth
and Sixth Circuits limit the category to deprivations
that result in additional consequential harm. In Huff ’s
case, TeleCheck withheld substantive information to
which Huff was statutorily entitled under § 1681g of
the FCRA (key portions of his credit file), and the
Sixth Circuit held that Huff lacked standing because
he never suffered additional consequential harm in
the form of a check decline. Still other courts do not
analyze informational injuries as a distinct category
of intangible harm, despite the Court’s preservation
of Akins and Public Citizen.
The second division concerns whether to differentiate between substantive and procedural rights.
Whereas the Ninth Circuit and a number of trial courts

5
have treated procedural violations that protect substantive rights as concrete, the Seventh Circuit rejects
the distinction as irrelevant, and still others remain
silent on the issue. Remaining silent here, the Sixth
Circuit ignored the fact that TeleCheck’s disclosure
was deficient in substance and not merely form and
hindered Huff ’s ability to exercise his substantive right
to monitor and correct inaccuracies in his credit file.
The third division concerns how to apply the “risk
of harm” test when the violation results in a missed
opportunity to exercise a statutory right. Some courts
ask if the violation risked depriving the plaintiff of an
opportunity to exercise a right conferred by statute.
The Sixth Circuit here, purporting to follow the Fourth
Circuit, instead asked whether giving Huff the opportunity to review and correct inaccuracies in his credit
file, in hindsight, could have prevented additional consequential harm. In doing so, the Sixth Circuit transformed the “risk of harm” inquiry into a quest for
additional harm that conflicts with Spokeo, further
fractures the split among the Courts of Appeals, and
results in a conflict within the Sixth Circuit.
As this case illustrates, the standard applied to
determine concreteness is no minor matter but if
applied inaccurately (as in this case) results in major
consequences. Huff ’s FCRA rights and those of thousands of others have been eviscerated in favor of
TeleCheck’s quest to profit. Here, the Sixth Circuit
plainly went too far in concluding that Huff does not
have access to federal court redress, and the outcome
would have been different had the issue been decided
by most other Court of Appeals or another Sixth Circuit
panel. That makes this case an ideal vehicle for the

6
Court to correct a specific injustice while also offering
much-needed guidance on the limits of Congress’
authority to create intangible injuries.
A.

The Statutory Protections

Congress enacted the FCRA because it recognized
a need for reasonable procedures to promote accuracy
and fairness in credit reporting. 15 U.S.C. § 1681;
see also Spokeo, 136 S. Ct. at 1545. “Congress plainly
sought to curb the dissemination of false information [in
consumer reporting] by adopting procedures designed
to decrease that risk.” Spokeo, 136 S. Ct. at 1550.
“Congress found that in too many instances agencies
were reporting inaccurate information,” often without
consumers’ knowledge. Dalton v. Capital Associated
Indus., Inc., 257 F.3d 409, 414 (4th Cir. 2001).
As relevant here, Congress aimed to decrease the
risk of harm associated with inaccurate credit reporting
by imposing a disclosure requirement under which
consumer reporting agencies must, upon request by the
consumer, “clearly and accurately disclose to the consumer . . . [a]ll information in the consumer’s file at the
time of the request.” 15 U.S.C. § 1681g. The consumer’s
file includes “all of the information on that consumer
recorded and retained by a consumer reporting agency
regardless of how the information is stored.” Id. § 1681a
(g). This required disclosure, with limited exceptions,
must be in writing. Id. § 1681h(a)(2). The only burden
imposed on the consumer is to furnish proper identification. Id. § 1681h(a)(1).
The disclosure requirement serves the FCRA’s
purpose by giving consumers the opportunity to review
their complete files and dispute inaccurate informa-

7
tion, which in turn prevents the risk of harm associated
with inaccuracies. See Robertson v. Allied Sols., LLC,
902 F.3d 690, 696 (7th Cir. 2018) (“Agencies’ disclosure obligations protect consumers’ interest in accurate
reporting.”); Gillespie v. Equifax Info. Servs., LLC,
484 F.3d 938, 941 (7th Cir. 2007) (stating that the
disclosure requirement aims to “allow consumers to
identify inaccurate information in their credit files
and correct this information”); Hauser v. Equifax, Inc.,
602 F.2d 811, 817 (8th Cir. 1979) (same); Ricketson
v. Experian Info. Sols., Inc., 266 F.Supp.3d 1083, 1090
(W.D. Mich. 2017) (explaining that § 1681g “promote[s]
consumer oversight of compliance with the FCRA”);
see also S. Rep. No. 517, 91st Cong., 1st Sess. 2 at 1-2
(emphasizing consumers’ right to be informed about
and correct information in their credit files). This
statutory protection also aims to correct skewed market
incentives that exist because “time spent with consumers going over individual reports reduces . . . profits”
for consumer reporting agencies and means less time
for “creditors and other business customers” from whom
these agencies earn their income. 115 Cong. Rec. 2, 412
(1969).
For negligent violations of the disclosure requirement, consumers can seek “actual damages” along with
reasonable attorney’s fees and costs. 15 U.S.C. § 1681o
(a). For willful violations, consumers have the option
to recover “actual damages” or statutory “damages of
not less than $100 and not more than $1,000” per
violation along with reasonable attorney’s fees and
costs. Id. § 1681n(a)(1). Consumers may also seek
punitive damages for willful violations. Id. § 1681n(a)
(2).

8
B.

Factual Background and District Court Proceedings

This petition arises from a putative class action
brought by James Huff on behalf of himself and similarly situated consumers who received facially deficient
disclosures from Respondents TeleCheck Services,
Inc., TeleCheck International Inc., and First Data
Corporation (collectively “TeleCheck”). TeleCheck is
a check verification company that provides consumer
reports to merchants, recommending whether merchants should accept or decline checks from retail
consumers at the point of sale. To do so, TeleCheck
relies on identifiers including bank account numbers
and driver’s license numbers, which come from several
sources, including prior merchant transactions processed through TeleCheck’s system at the point of sale.
When a consumer presents two identifiers to make a
transaction (for example, a check and a driver’s license),
TeleCheck’s system creates and maintains a link
between those identifiers. In a future transaction,
TeleCheck will recommend that a merchant decline a
consumer’s check if there is debt associated with any
identifier presented at the point of sale or any identifier
linked to the consumer stored in TeleCheck’s system,
without being able to reliably determine if the linked
identifiers actually belong to the consumer. App.2a-3a.
Huff often pays by check. Exercising his rights
under § 1681g of the FCRA, and having furnished his
driver’s license as proper identification, Huff asked
TeleCheck for his entire credit file. TeleCheck partially
responded to Huff ’s request, but purposefully omitted
information from the disclosure, including linked
identifiers. Based on its systematic practice, TeleCheck
instead provided this cryptic disclaimer: “Your record

9
is linked to information not included in this report,
subject to identity verification prior to disclosure.” If
Huff were to have contacted TeleCheck, TeleCheck
would have only disclosed linked information, including
linked identifiers, that Huff “affirmatively provided”
TeleCheck, not information related to a linked identifier belonging to someone else which was unbeknownst to him linked to him. App.54a. TeleCheck
usually receives calls from consumers only after a
check decline, so it is only then that consumers may
find out about an inaccurately linked account purposefully withheld from them, only if they “affirmatively
provide[ ]” TeleCheck with each undisclosed linked
identifier they do not know is linked to them. App.51a52a, App.54a. Huff claims in this putative class action
that TeleCheck’s practice of excluding from mandatory
disclosures substantive information linked to consumers within their credit files, and that TeleCheck relies
on to make credit determinations and recommendations to merchants, violates the FCRA. App.28a-29a.
Huff first learned the nature of the linked information purposefully omitted from his disclosure during
discovery in the lawsuit. The purposefully omitted
information included six bank accounts and two transactions linked to Huff. Most troubling, five of the six
linked bank accounts do not even belong to Huff, and
yet TeleCheck tied Huff’s creditworthiness to the
accounts and considered them when deciding whether
merchants should decline his checks. App.3a-4a.
According to TeleCheck, these inaccurately linked
accounts have had no debt, so TeleCheck has never
told a merchant to decline one of Huff ’s checks based
on any of those accounts. Nonetheless, if any of the

10
inaccurately linked accounts were to have developed
debt in the future, and were Huff to have then presented a check to a merchant, TeleCheck would have
told the merchant to decline Huff ’s check. App.7a-8a.
Huff moved for class certification and TeleCheck
moved for summary judgment based on Huff ’s alleged
lack of standing. The district court granted TeleCheck’s
motion and denied Huff ’s motion as moot. In analyzing
standing, the district court focused on the two omitted
transactions and did not even mention the six omitted
bank accounts. Huff lacked standing, the district
court held, because the two transactions were accurate
and their non-disclosure did not prevent Huff from
obtaining credit or result in any other actual harm to
Huff. App.34a. The district court recognized that
Congress intended through § 1681g to give consumers
the opportunity to correct inaccurate information in
their files, but it did not believe that this concern was
implicated “because there was no erroneous information
for [Huff] to correct.” On this false premise, and after
years of litigation, the district court dismissed Huff ’s
case. App.37a.
C.

Sixth Circuit Proceedings.

A divided panel of the Sixth Circuit affirmed,
holding that Huff had not suffered a concrete injury
because the violation “had no adverse consequences”
for him. App.12a. Although recognizing that TeleCheck
had failed to disclose not only the two transactions,
but also bank accounts, most of which did not belong to
Huff, the Sixth Circuit considered it dispositive that
none of the purposefully omitted information “made a
difference in any credit determination.” App.16a.
Specifically, the court reasoned, “TeleCheck has never

11
told a merchant to decline one of Huff ’s checks due to
his linked information,” since “[n]one of the six accounts
linked to Huff ’s driver’s license has ever been associated with an outstanding debt.” App.4a; App.12a. Although recognizing the power of Congress to elevate
intangible injuries to concrete ones, the Sixth
Circuit believed that Congress had failed to explain
why this type of “seemingly harmless procedural
violation constitutes a real injury.” App.13a.
The court rejected Huff ’s position that Congress
gave consumers the substantive right to monitor
their credit files and that depriving consumers of the
opportunity to dispute inaccuracies by purposefully
omitting linked information is itself a concrete injury.
The court distinguished this Court’s informational
injury cases—Akins and Public Citizen—on grounds
that the plaintiffs in those cases “would have used the
[withheld] information to participate in the political
process,” whereas “TeleCheck’s incomplete report
had no effect on Huff or his future conduct.” App.16a.
In doing so, the Sixth Circuit joined the Fourth
Circuit, which together comprise the minority view
that informational injuries are only concrete if the
plaintiff would have altered his conduct had he
received the information and thereby would have
avoided additional consequential harm. App.16a.
Notably, the Sixth Circuit applied the Fourth Circuit’s
minority view inaccurately and even ignored that Huff
filed a lawsuit.
The Sixth Circuit also rejected Huff ’s argument
that “the risk of a check decline created by TeleCheck’s nondisclosure establishes standing.” App.16a.
With the benefit of knowing the nature of the pur-

12
posefully omitted information and the fact that Huff
did not suffer a check decline or any other additional
“adverse consequences” due to TeleCheck’s violation,
the majority concluded in hindsight that Huff was
never exposed to a risk of real harm. App.12a.
Judge Helene White dissented, concluding that
“Congress conferred on consumers like Huff the right
to request their entire file to protect their interest in
having only accurate information reported about them”
and “TeleCheck’s failure to provide Huff ’s entire file
created a material risk that inaccurate information
would be reported about him and he would face a check
decline.” App.21a. This two-part reasoning tracked the
test adopted in Macy v. GC Services Limited Partnership, 897 F.3d 747, 756 (6th Cir. 2018), which followed
Strubel v. Comenity Bank, 842 F.3d 181, 190 (2d Cir.
2016).
The dissent criticized the majority for departing
from Macy and instead adopting “a rule that requires
the plaintiff to show actual harm,” which cannot be
reconciled with Spokeo. App.23a. And whereas the
majority faulted Congress for not explaining itself,
the dissent had no trouble concluding that “Congress
closely tied the right to disclosure of one’s entire file
to the legitimate purpose of preventing the risk of
an inaccurate credit report.” App.25a. The dissent
concluded that “[t]he majority declares the [FCRA]
unconstitutional” as applied to TeleCheck’s systematic
violations. App.21a.
Notably, not even the majority viewed the law as
clear in this area, acknowledging that “the border
between what Congress may do in creating cognizable
intangible injuries and what it may not do remains

13
elusive” after Spokeo. App.11a. The court suggested
that it may be appropriate to draw a line between
private and public rights, as Justice Thomas proposed
in Spokeo, and stated that “the theory deserves further
consideration at some point.” App.19a.

REASONS FOR GRANTING THE PETITION
I.

THE LOWER COURTS HAVE ADOPTED DIFFERENT
TESTS TO DETERMINE WHETHER A STATUTORY
VIOLATION IS SUFFICIENTLY CONCRETE TO CONFER
ARTICLE III STANDING.

Although Spokeo made clear that intangible
harms can satisfy the concreteness requirement, the
dividing line remains elusive. The lack of clarity on
how to differentiate between “bare procedural violations” on the one hand and violations that are sufficiently concrete on the other has resulted in confusion
and inconsistency among lower courts, in at least
three respects.
A. Lower Courts Disagree Regarding the Concreteness of Informational Injuries.
Lower courts disagree on how to analyze informational injuries. The Eleventh Circuit, falling on
one side of the spectrum, takes the position that
plaintiffs who have been deprived of information to
which they are statutorily entitled have necessarily
suffered a concrete injury. See Nicklaw v. CitiMortgage,
Inc., 839 F.3d 998, 1002 (11th Cir. 2016) (“[A] plaintiff
who alleges a violation of a statutory right to receive

14
information alleges a concrete injury.”). In Church v.
Accretive Health, Inc., 654 Fed. App’x 990 (11th Cir.
2016), the court held that the plaintiff had standing
to sue the defendant for failure to provide required
disclosures under the Fair Debt Collection Practices
Act (“FDCPA”). Id. at 995 (“Church did not receive
information to which she alleges she was entitled.”).
The court did not view this Court’s standing precedent
as placing any limit on the types of informational
injuries that confer Article III standing. Id. at 995
(relying on Spokeo, supra, and Havens Realty Corp.
v. Coleman, 455 U.S. 363 (1982)).
In a case out of the Ninth Circuit, Larson v. Trans
Union, LLC, 201 F.Supp.3d 1103 (N.D. Cal. 2016), the

plaintiff alleged a violation of § 1681g of the FCRA—
the same provision at issue here—based on misleading
information in his credit file that left him uncertain
whether he was reported as a match to another individual and whether he had the right to dispute the
information. The Larson court concluded that this
violation fell within the category of informational
injuries “that the Spokeo Court implicitly recognized
in citing Public Citizen and Akins,” and that several
other courts, including the Eleventh Circuit in Church,
have since found sufficient to confer Article III standing.
Id. at 1106-107.

Along similar lines, the Seventh Circuit, consistent
with Akins and Public Citizen, takes the position that
“[a]n informational injury is concrete if the plaintiff
establishes that concealing information impaired her
ability to use [the information] for a substantive purpose
that the statute envisioned.” Robertson, 902 F.3d at
694. In Robertson, the defendant violated § 1681b(b)

15
(3)(A) of the FCRA by rescinding an employment offer
without providing the plaintiff with the background
report it had obtained. The plaintiff had standing
because she “was denied information that could have
helped her craft a response to [the defendant’s] concerns.” Id. at 697. This position is narrower than the
standard in Church and Larson in that it turns on
whether the deprivation could compromise a substantive right.
The Seventh Circuit reiterated its position but with
some contradiction in Casillas v. Madison Avenue
Assocs., Inc., 926 F.3d 329 (7th Cir. 2019). There, the
defendant violated the FDCPA when it sent an
incomplete letter that failed to specify that debts may
only be disputed in writing. Id. at 331. In concluding
that the plaintiff lacked standing, the court distinguished Robertson: “Unlike the [FCRA], the provisions
of the [FDCPA] that [the defendant] violated do not
protect a consumer’s interest in having an opportunity to review and respond to substantive information.”
Id. at 334-35. The court also found it significant that
the plaintiff did not seek the information or allege
that she would have used it. Id. at 338. This creates
tension with Robertson, where the plaintiff likewise
did not seek the background report, and it only
mattered that she was denied “the chance to respond.”
Robertson, 902 F.3d at 697 (emphasis added). Further, not knowing the in-writing requirement could
compromise a debtor’s substantive right to dispute
debt, which again creates tension between Casillas
and Robertson.

Landrum v. Blackbird Enterprises, LLC, 214
F.Supp.3d 566 (S.D. Tex. 2016), from the Fifth Circuit,

16
is consistent with Robertson. There, the plaintiff alleged
that the defendants had violated his right under the
FCRA to be notified of their intent to perform a
background check for employment purposes. Id. at 572.
The plaintiff complained that he did not receive a
stand-alone disclosure of this intent. Id. The plaintiff
lacked standing, the court held, because he did not
allege that he was unaware, as a substantive matter,
that the defendants may conduct a background check;
the fact that he did not receive the information in the
proper format was a “bare procedural violation.” Id.
The Fourth Circuit, in Dreher v. Experian Info.
Sols., Inc., 856 F.3d 337 (4th Cir. 2017), articulated a
heightened standard for informational injuries. There,
an Experian credit report revealed the plaintiff’s
association with a delinquent account. Id. at 341. As
the source for the account, the report listed the defunct
credit card company, rather than its servicer, but
nonetheless provided the servicer’s contact information.
Id. The Dreher court held that standing based on an
“informational injury requires that a person lack access
to information to which he is legally entitled and that
the denial of that information creates a real harm with
an adverse effect.” Id. at 345 (internal quotation marks
omitted). The plaintiff lacked standing, the court reasoned, because “receiving a creditor’s name rather than
a servicer’s name—without hindering the accuracy of
the report or efficiency of the credit report resolution
process—worked no real world harm on [him].” Id. at
346 (emphasis added). Thus, the Fourth Circuit requires
plaintiffs to show real world harm in addition to the
deprivation of information to establish Article III
standing.

17
Here, the Sixth Circuit, purporting to rely on
Akins, Public Citizen, and Dreher, concluded that a
deprivation of information, to be concrete, must hinder
participation in the political process or result in other
“actual consequences.” App.15a-16a. The Sixth Circuit
found it dispositive that TeleCheck’s violation did
not affect Huff ’s future conduct or result in a check
decline.1 The court was not persuaded that depriving
Huff of his substantive right to monitor his file and
correct inaccuracies was enough without some extra
showing of harm: “[T]he linked information nonetheless
never made a difference in any credit determination[.]”
App.16a. This standard is arguably harder to meet
than the one in Dreher. Whereas Dreher could be
distinguished as involving an entity misnomer that
did not result in the deprivation of any substantive
right, much like a mere zip code error, preventing Huff
from reviewing linked information that TeleCheck
relies on to evaluate his creditworthiness unquestionably deprived Huff of his substantive right to monitor
and correct inaccuracies in his credit file. Nonetheless,
the Sixth Circuit concluded that he had suffered no
injury-in-fact.
Finally, some courts seem to ignore informational
injuries as a distinct category of intangible harm. In
Strubel, for example, the plaintiff alleged that the
defendant violated certain disclosure provisions of
the Truth in Lending Act: (1) failure to give notice
that certain rights pertain only to disputed credit card
purchases not yet paid in full; and (2) failure to give
notice that a consumer dissatisfied with a credit card
1 See infra at p. 11 (explaining how TeleCheck’s violation of the
FCRA did impact Huff ’s future conduct: Huff filed a lawsuit).

18
purchase must contact the creditor in writing or electronically. Strubel, 882 F.3d at 190. Although concluding that the plaintiff had standing, and acknowledging that Akins and Public Citizen remain good law,
the Second Circuit did not treat informational injuries
as a distinct category and instead applied the general
“risk of harm” test. The Sixth Circuit, in two deficient
disclosure cases, also failed to mention informational
injuries. See Hagy v. Demers & Adams, 882 F.3d 616,
623 (6th Cir. 2018) (holding that the plaintiffs lacked
standing to bring FDCPA claim based on letter forgiving debt that did not disclose that it was from a debt
collector); Macy, 897 F.3d at 758-60 (holding that the
plaintiffs had standing to bring FDCPA claim where
letters failed to state that disputes of debt must be in
writing).
These variations in the standard for evaluating
informational injuries are not mere semantics. As
this case illustrates, the standard can make all the
difference. There can be no serious dispute, for example,
that the Eleventh Circuit would have concluded that
Huff had standing to sue based on a concrete informational injury, since the test there is virtually
unqualified. The result here would also be different
in the Seventh Circuit and in other courts that consider
whether the deprivation of information affected a substantive right but do not require that the violation
cause any additional adverse effect.
In sum, the lower courts disagree on how to analyze whether informational injuries are sufficiently
concrete to confer Article III standing in ways that
are outcome-determinative. The Court should grant
certiorari to resolve the division.

19
B. Lower Courts Disagree on Whether to Differentiate Between Procedural and Substantive
Rights.
A second area of division—whether to differentiate
between procedural and substantive rights—appears
in informational injury cases, as described above. But
the division also appears in cases that do not involve
informational injuries.
On the one hand, in non-informational injury
cases, the Seventh Circuit rejects any “distinction
between substantive and procedural statutory violations.” Gubala v. Time Warner Cable, Inc., 846 F.3d
909, 912 (7th Cir. 2017); see also Meyers v. Nicolet
Restaurant of De Pere, LLC, 843 F.3d 724, 727 n.2
(7th Cir. 2016) (“[W]hether the right is characterized as
‘substantive’ or ‘procedural,’ its violation must be
accompanied by an injury-in-fact.”).2 On the other hand,
the Ninth Circuit, among other courts, considers the
distinction dispositive. See Eichenberger v. ESPN, Inc.,
876 F.3d 979, 984-85 (9th Cir. 2017) (“[T]he [Video
Privacy Protection Act] identifies a substantive right
to privacy that suffers any time a video service provider discloses otherwise private information.”); see
also Burke v. Fed. Nat’l Mortg. Ass’n, No. 16-CV-153HEH, 2016 WL 4249496, at *4 (E.D. Va. 2016) (“[G]iven
the purposes, framework, and structure of the FCRA,
the right to privacy established by the statute appears
to be more substantive than procedural.”); Matera v.
Google Inc., No. 15-CV-04062-LHK, 2016 WL 5339806,
2 This is in contrast to the Seventh Circuit’s focus on the substantive nature of violations alleged in informational injury cases.
It is unclear why the Seventh Circuit rejects the distinction outside that context.

20
at *12 (N.D. Cal. Sept. 23, 2016) (following the lead
of “many courts since Spokeo ” that have “placed
dispositive weight on whether a plaintiff alleges the
violation of a substantive, rather than procedural,
statutory right”).
The Second Circuit does not use the term “substantive right,” but effectively draws that line. In Melito
v. Experian Marketing Sols., 923 F.3d 85 (2d Cir. 2019),
the court reasoned that “the receipt of unwanted advertisements [under the Telephone Consumer Protection
Act] is itself the harm” and there was thus no need to
analyze whether the violation posed a risk of harm to
the plaintiff. Id. at 93-94.
The distinction may have some roots in Spokeo ;
Justice Ginsburg, writing in dissent, interpreted the
majority decision as announcing a standard that considers whether the procedural requirements of the
violated statute are connected “to the prevention of
a substantive harm.” Spokeo, 136 S. Ct. at 1555
(Ginsburg, J., dissenting) (emphasis added). But the
distinction is entirely lost on many lower courts, who
remain silent on whether the nature of the statutory
right is relevant to the analysis.
The Sixth Circuit is among the silent courts. Here,
the court never considered whether Congress gave Huff
the substantive right to monitor his entire credit file
and correct inaccuracies. Not asking that question
made all the difference. In many courts, Huff ’s case
would still be alive on this basis alone. See Robertson,
902 F.3d at 694 (“An informational injury is concrete
if the plaintiff establishes that concealing information impaired her ability to use it for a substantive
purpose that the statute envisioned.”); Church, 654

21
Fed. App’x at 992 n.2 (concluding that Church had
standing because “Congress provided Church with a
substantive right to receive certain disclosures and
Church has alleged that Accretive Health violated
that substantive right.”); Thomas v. FTS USA, LLC,
193 F.Supp.3d 623, 631-32 (E.D. Va. 2016) (concluding
that § 1681b(b) of the FCRA establishes a substantive right to specific information). The outcomedeterminative nature of the division among lower
courts warrants this Court’s consideration.
C. Lower Courts Disagree on How to Analyze Risk
of Harm.
Finally, the way in which lower courts analyze
risk of harm under Spokeo has resulted in inconsistent rulings in “missed opportunity” cases involving
indistinguishable facts. For example, where debtors
were not informed that disputes under the FDCPA
must be in writing, the Sixth Circuit asked whether the
violation risked compromising the ability of the
plaintiffs to exercise their rights under the FDCPA.
Macy, 897 F.3d at 760. In Casillas, by contrast, the
Seventh Circuit concluded that the same violation
posed no risk of harm “because there was no prospect
that [the plaintiff] would have tried to exercise” her
statutory rights. Casillas, 926 F.3d at 334 (emphasis
added); see id. at 340 (Wood, C.J., dissenting) (recognizing that Casillas “has created a conflict with the
Sixth Circuit, which held otherwise in Macy ”); but
see Robertson, 902 F.3d at 697 (“Article III’s strictures
are met not only when a plaintiff complains of being
deprived of some benefit, but also when a plaintiff
complains that she was deprived of a chance to obtain
a benefit.”) (emphasis added).

22
Here, the Sixth Circuit asked whether Huff would
have avoided additional consequential harm by exercising his rights under the FCRA had TeleCheck disclosed the purposefully omitted information as statutorily required. App.7a-8a. That standard is higher than
Casillas and far more onerous than Macy, resulting
in an internal split in the Sixth Circuit. Had the panel
in Macy decided Huff ’s appeal, his case would be alive
because there is no dispute that TeleCheck’s violation
deprived Huff of the ability to monitor and correct
inaccuracies in his credit file. The fractured state of
the law in this area warrants the Court’s review.
Moreover, the majority opined that Huff “could have
learned which accounts TeleCheck linked to him” if
he simply called TeleCheck. App.9a. To the contrary,
TeleCheck would not have disclosed the linked information to Huff unless he “affirmatively provided”
TeleCheck each identifier that was, unbeknownst to
him, inaccurately linked to him. App.54a.
II.

THE DECISION BELOW IS PLAINLY WRONG BECAUSE
IT CANNOT BE RECONCILED WITH THIS COURT’S
STANDING PRECEDENT.

Under Spokeo, courts must assess alleged intangible harm by evaluating risk: the question is whether
the violation “entail[s] a degree of risk sufficient to
meet the concreteness requirement.” Spokeo, 136 S.
Ct. at 1550. A plaintiff who alleges “a bare procedural
violation” for which “[i]t is difficult to imagine” how
it “could work any concrete harm” of the type that
Congress sought to prevent does not have standing
because the violation does not carry a sufficient degree
of risk. Id. at 1550. A zip code error, for example, may
be a bare procedural violation because it is hard to

23
imagine how it could cause a consumer to suffer harm
of the type that Congress sought to prevent with the
FCRA. Id.
But here, the Sixth Circuit did not analyze risk;
it analyzed harm. Consider this quote: “TeleCheck’s
alleged statutory violation did not harm Huff ’s interests
under the Fair Credit Reporting Act because it had no
adverse consequences.” App.12a (emphasis added).
And this one: “The linked information nonetheless
never made a difference in any credit determination,
meaning its continued existence in TeleCheck’s system
did not harm Huff ’s concrete economic interests.”
App.16a (emphasis added). The dissent appropriately
criticized the majority for announcing a standard
that “requires the plaintiff to show actual harm,”
which cannot be reconciled with Spokeo. App.23a.
In accord with Spokeo, the Sixth Circuit majority
should have asked whether TeleCheck’s failure to
disclose substantive information to Huff, including
bank accounts that TeleCheck relies on but that are
not his, created a risk of harm of the type that Congress
sought to prevent. The obvious answer is yes—no
imagination is required—and the violation trounces
upon the very purpose of the FCRA, which is to reduce
the risk of harm associated with inaccurate credit
reporting. Indeed, TeleCheck does not dispute that if
any of the inaccurately linked accounts were to have
developed debt, and were Huff to have thereafter
presented a check to a merchant, then TeleCheck would
have told the merchant to decline Huff ’s check. Nor
is it disputed that, had TeleCheck properly disclosed
Huff ’s complete file, Huff could have demanded that
TeleCheck delink the inaccurately linked accounts,

24
thereby eliminating the risk of a check decline based
on the inaccurately linked accounts.
The Sixth Circuit concluded that Huff lacked
standing only because it failed to ask the right question.
The error stems from an improper vantage point.
While purporting to evaluate risk, the Sixth Circuit
approached the inquiry with the benefit of hindsight.
The Sixth Circuit considered it dispositive that the
inaccurately linked accounts have not had or developed
any debt, so TeleCheck’s improper reliance on those
accounts has not caused Huff to suffer a check decline.
Yet this information—the existence of the inaccurately
linked accounts and the fact that they have not been
associated with debt—was first learned during discovery in the lawsuit, long after the violation occurred.
The problem is that risk, by definition, is not
measured in hindsight. A poker analogy is illustrative.
When a player evaluates whether to bet, call, or fold,
she cannot see her opponent’s cards. At that point,
her decision carries risk. Once the cards are exposed,
the player rejoices or laments her decision. Take, for
example, a player with three-of-a-kind who decides to
bet and her opponent turns out to have only two-of-akind. In hindsight, the player concludes that she made
the right choice and would not have done anything
different in hindsight. But that does not mean that
her decision carried no risk. Plenty of hands could
have beat hers, in which case she would have suffered
economic harm. Hindsight does not remove the odds
inherent in poker. Nor would it be accurate to say that
the risk associated with the player’s bet was speculative or remote—at the time she placed her bet, the risk
was both actual and imminent.

25
The Sixth Circuit’s use of hindsight is equally
flawed. Except here, we are not talking about a poker
game, but about thousands of consumers subjected to
TeleCheck’s systematic violations of the FCRA. For
some, the risk of harm associated with TeleCheck’s
violations will materialize into additional consequential harm. For others, it will not. That is the nature
of risk. In Huff ’s case, he learned through discovery
in the lawsuit that he is linked to accounts that are
not his. Although Huff did not ultimately suffer a
check decline, the violation at the time nonetheless
created a risk that was both sufficient in degree and
imminent. Unbeknownst to Huff, TeleCheck was relying
on, not just one, but five inaccurately linked accounts
each and every time it evaluated Huff ’s creditworthiness, any one of those accounts could have developed
debt at any time, any debt that developed would be
grounds for a check decline, and Huff frequently pays
by check.
The Sixth Circuit’s error cannot be overstated.
As this Court held in Spokeo, a statutory remedy is
within Congress’ authority to provide, and is thus
constitutional, when the procedural violation is connected to the risk of real harm that Congress sought to
prevent. Spokeo, 136 S. Ct. at 1549. By not analyzing
risk, and instead analyzing in hindsight whether the
violation resulted in additional consequential harm,
the Sixth Circuit has effectively eliminated the category
of intangible harms that this Court intended to preserve
as constitutional. See App.21a (White, J., dissenting).
The decision will also be used as a tool to eviscerate
class actions in the Sixth Circuit seeking statutory
damages under consumer protection laws. In both
respects, the decision below is at odds with Spokeo.

26
In yet another misstep, the Sixth Circuit faulted
Huff because, before filing suit, he did not contact
TeleCheck to correct substantive information in his
file that TeleCheck never disclosed to him. App.3a.
But even if Huff had contacted TeleCheck, TeleCheck
would have only revealed the linked information purposefully withheld from him, including bank accounts
linked to him which did not belong to him—clearly
information relevant to Huff, only if Huff “affirmatively
provided” TeleCheck with each undisclosed identifier
he did not know was linked to him. App.54a. Beyond
the logical flaw of this position, the FCRA does not
require a consumer who properly sought a disclosure
under § 1681g to contact TeleCheck to try to guess
what information was omitted, the nature of which
the consumer does not even know, or to take any other
pre-suit recourse. Nor is it fair to blame Huff for not
contacting TeleCheck during this litigation. App.8a.
TeleCheck has now learned which linked accounts are
not Huff ’s and became obligated to delink them. The
Sixth Circuit’s focus on Huff ’s post-violation conduct
only further exposes its improper vantage point and
failure to analyze risk.
In sum, at the time the violation occurred, Huff
was denied the right to monitor and correct substantive inaccuracies in his credit file, the existence of
which carried a risk that he would suffer a check
decline. This right to correct inaccuracies with realworld import in credit determinations is precisely the
type of concrete interest that Congress sought to give
consumers like Huff. Spokeo requires no greater
showing from a plaintiff. Yet the Sixth Circuit has
now announced a test under which a plaintiff can
establish standing in this context only if the missed

27
opportunity to correct inaccuracies, if taken, would
have prevented additional harm to the consumer. The
Court should grant certiorari because the lower court
plainly departed from Spokeo.

Spokeo also recognized certain informational
injuries as concrete in their own right, offering Akins
and Public Citizen as examples, but without elabora-

tion. Here, the Sixth Circuit interpreted the examples
as imposing a limitation: “the plaintiffs [in those
cases] would have used the information to participate
in the political process,” whereas the purposefully
omitted information here “had no effect on Huff or his
future conduct” and “carried no actual consequences.”
App.16a. Yet an examination of Akins and Public
Citizen does not support that limitation.
In Akins, voters sought information about
campaign-related contributions and expenditures under
the Federal Election Campaign Act to help them
“evaluate candidates for public office,” but the Federal
Election Commission failed to disclose the information.
Akins, 524 U.S. at 19-21 (emphasis added). According
to the Court, “a plaintiff suffers an ‘injury in fact’
when the plaintiff fails to obtain information which
must be publicly disclosed pursuant to statute.” Id. at
21. The Court did not limit this rule to the political
arena, nor did it ask whether the information would
necessarily have influenced the voters’ future conduct.
What mattered for purposes of standing was that the
voters were deprived of their statutory right to evaluate
the substance of the information. Id. at 20-21.
In Public Citizen, interest groups sought “access
to the ABA Committee’s meetings and records in order
to monitor its workings and participate more effectively

28
in the judicial selection process.” Public Citizen, 491
U.S. at 449 (emphasis added). There, this Court
reasoned that “refusal to permit [the interest groups]
to scrutinize the ABA Committee’s activities to the
extent [the Federal Advisory Committee Act] allows
constitutes a sufficiently distinct injury to provide
standing to sue.” Id. (emphasis added). To bolster its
point, the Court referred to its “decisions interpreting
the Freedom of Information Act,” which “have never
suggested that those requesting information under it
need show more than that they sought and were
denied specific agency records.” Id. In other words,
a plaintiff who is deprived of a statutory right to
monitor or scrutinize substantive information has suffered a concrete injury, and no additional consequence
need be shown.
The Sixth Circuit here did not appreciate the
breadth of Akins and Public Citizen, which this Court
in Spokeo left undisturbed. And while none of this
precedent explicitly draws a line between substantive
deprivations and deficiencies in disclosures, the line is
reasonably inferred from this Court’s standing precedent. Indeed, the majority of lower courts conclude that
informational injuries that are substantive in nature
are concrete. Here, however, the Sixth Circuit did not
express a view one way or the other with respect to
this distinction. Despite that TeleCheck deprived
Huff of substantive information to which he is
statutorily entitled and that TeleCheck considers
every time it decides whether a merchant should accept
one of Huff ’s checks, the Sixth Circuit held that there
could be no standing absent some additional showing
of consequential harm to Huff.

29
Under the standard applied in this case, credit
reporting agencies are only liable for violations of
§ 1681g if they fail to disclose inaccurate information
in a consumer’s credit file that, if disclosed, would have
allowed the consumer to take corrective action and
ultimately avoid additional consequential harm. In
effect, the decision allows consumer reporting agencies
to usurp the monitoring right that Congress intended
to give consumers. Although a troubling thought,
because responding to § 1681g requests is expensive
and time-consuming, and because the standard applied
in this case dramatically reduces exposure for violations, consumer reporting agencies may be incentivized
to forgo responses altogether. Yet that is precisely
the skewed market incentive that Congress sought to
correct with the FCRA. 115 Cong. Rec. 2, 412 (1969).
This sort of “no [additional consequential] harm, no foul”
message is also at odds with Spokeo. The Court should
grant certiorari to review this important issue.
III. THIS CASE IS AN IDEAL VEHICLE TO ADDRESS A
FREQUENTLY RECURRING ISSUE OF EXCEPTIONAL
IMPORTANCE.
This case is an ideal vehicle to resolve key areas
of division that have emerged in Spokeo’s wake. The
Court in Spokeo did not have occasion to delineate
the category of informational injuries that confer
Article III standing because Spokeo did not involve
an informational injury, and the Court’s reference to
Akins and Public Citizen has been interpreted inconsistently or ignored by lower courts. This case involves
an informational injury and thus offers the opportunity for the Court to clarify the circumstances
under which informational injuries are concrete and

30
the extent to which they should be analyzed differently
than other types of intangible harms.
This case also offers the opportunity to clarify
whether courts should first consider whether the
statutory violation pertains to a substantive right.
Here, Huff does not complain of the format in which
his disclosure came; rather, he complains that TeleCheck withheld key information to which he was
statutorily entitled and without which he could not
exercise his substantive right to monitor and correct
inaccuracies in his credit file. Asking whether a violation tends to risk harming a procedural or substantive
right is a sensible way to separate “bare procedural
violations” from violations that are sufficiently concrete,
but without clear direction from the Court, division
among the lower courts will likely persist.
Finally, the Sixth Circuit in this case asked in
hindsight whether Huff could have avoided additional
consequential harm had TeleCheck disclosed linked
information to Huff as statutorily required. This
improper vantage point, in effect, requires plaintiffs
to show additional consequential harm and thus cannot
be reconciled with Spokeo, which only requires that
the violation pose a risk of harm to a concrete interest
that Congress sought to prevent. Nothing in Spokeo
supports requiring a plaintiff like Huff to suffer a
check decline before he can sue to vindicate his substantive right to monitor and correct inaccuracies in
his credit file. This case is the ideal vehicle to clarify
the “risk of harm” standard in the context of a missed
opportunity to exercise a statutory right.
Deficient disclosures are frequently the subject
of class action litigation. Disclosure obligations under

31
the FCRA and a variety of other statutes serve a
critical role in equipping protected individuals with
the information needed to protect their concrete
interests in the way that Congress intended. As for the
FCRA, Congress recognized that “a credit reporting
agency earns its income from creditors or its other
business customers”—the same entities it relies on to
obtain credit information—and that it must “exercise
[its] grave responsibilities” in a way that “ensure[s]
fair and accurate credit reporting.” 115 Cong. Rec. 2,
412 (1969); 15 U.S.C. § 1681(a). The Sixth Circuit’s
decision in this case puts those interests in jeopardy,
promotes the type of harm that Congress sought to
prevent through disclosure obligations, and places
constraints on congressional authority far beyond those
envisioned in Spokeo. The Court should grant certiorari to resolve the division among the lower courts on
issues that Spokeo did not squarely address but that
are properly presented here.

32

CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari.
Respectfully submitted,
MARTIN D. HOLMES

COUNSEL OF RECORD

DICKINSON WRIGHT PLLC
FIFTH THIRD CENTER, SUITE 800
424 CHURCH STREET
NASHVILLE, TN 37219
(615) 244-6538
MDHOLMES@DICKINSONWRIGHT.COM

COUNSEL FOR PETITIONER
DECEMBER 11, 2019

